No.

IN THE
SUPREME COURT OF THE UNITED STATES

LINAKER CHARLEMAGNE
Petitioner

v.

MARK S. INCH, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS
Respondents)

PROOF OF SERVICE
I, Linaker Charlemagne, do swear or declare that on this date, S&pMrnh&r 227, 2021,
as required by Supreme Court Rule 29, that I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on the
above proceedings or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the Untied States mail properly
addressed to each of them and with first -class postage prepaid, or by delivery to a third party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Clerk of the U.S. Supreme Court
1 First Street N.E.
Washington, DC. 20543
Florida Attorney General’s Office
1 SE 3rd Avenue, 9th Floor
Miami, FL 33131
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on .Qtpk/r'ibef

2-1

, 2021.

6

¥
CERTIFICATE OF COMPLIANCE
No.

LINAKER CHARLEMAGNE
Petitioner

v.

MARK S. INCH, SECRETARY,
FLORIDA DEPARTMENT OF CORRECTIONS
Respondents)

As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of certiorari
contains 903 words, excluding the parts of the petition that are exempted by Supreme Court Rule
33.1(d).
I declare under the penalty of perjury that the foregoing is true can correct.
Executed on this

:2r7.T'day of. 3&tfkscr>.

,2021.

/Y
($ignai

7

